Important Disclosures About Your Sunbit Card
Sunbit Card is issued by TAB Bank

INTEREST RATES AND INTEREST CHARGES
Annual
Percentage
Rate (APR) for
Purchases

7.24% to 29.99%

How to Avoid
Paying Interest

Your due date is at least 26 days after the close of each billing cycle. We will not
charge you any interest on purchases if you pay your entire balance by the due
date each month.

For Credit Card
Tips from the
Consumer
Financial
Protection
Bureau

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

This APR will vary with the market based on the Prime Rate.*

FEES
Annual Fee

None

Transaction Fee
●

Foreign Transaction

3% of each transaction in U.S. dollars.

Penalty Fees
●

Late Payment

$19

●

Over-the-Credit Limit

None

●

Returned Payment

None

How We Will Calculate Your Balance: We use a method called "average daily balance (including new
purchases)." See the "Interest Calculation; Balances Subject to Interest Rate" section of this Agreement
for more details.
Billing Rights: See "Billing Rights Summary" section of this Agreement for information on your rights to
dispute transactions and how to exercise those rights.
*Prime Rate: The Index for the variable APR is based on the Prime Rate. The Index is 3.25% as of
06/30/2021. Please refer to "Variable Annual Percentage Rate" section of this Agreement for more
details.
APR for Purchases: The Annual Percentage Rate of 7.24% to 29.99% for Purchases is variable and is
equal to the Prime Rate plus a margin of 3.99% to 26.74% (Daily Periodic Rate currently 0.01983562% to
0.08216438%).
Military Lending Act Disclosure: To receive important disclosures and payment obligation information
about this Agreement verbally, please call 855.950.0057.

CARDMEMBER AGREEMENT
General Information: This Cardmember Agreement and the Important Disclosures About Your
Sunbit Card ("Important Disclosures") (together, the "Agreement") is the agreement for your
Sunbit credit card account issued by TAB Bank (your "Account"). Key terms are defined
throughout this Agreement, including in the "Definitions" section, below. The words "we," "us,"
"our" and "TAB Bank" each mean Transportation Alliance Bank, Inc. d/b/a TAB Bank, and its
successors and assigns. The word "Sunbit" means Sunbit Now, LLC, dba Sunbit, the company
that assists TAB Bank in servicing your Account. (We may allow Sunbit and/or other third parties
to exercise our rights on our behalf.) The words "Cardmember," "you" and "your" each mean
all persons whom we approve to use the Account, and any person who agrees to be responsible
for payment of the Account. Please keep a copy of the Agreement for your records and read it
carefully.
Arbitration Notice: SECTION 33 OF THIS AGREEMENT IS AN ARBITRATION PROVISION
WHICH WILL APPLY TO YOU UNLESS (1) YOU ARE A MEMBER, OR A DEPENDENT OF A
MEMBER, OF THE ARMED FORCES ON THE DATE YOU OPEN THIS ACCOUNT, OR
(2) YOU REJECT THE ARBITRATION PROVISION AS PROVIDED IN SECTION 33. IF
APPLICABLE, THE ARBITRATION PROVISION WILL SIGNIFICANTLY AFFECT YOUR
RIGHTS IF A DISPUTE ARISES BETWEEN YOU AND US. FOR EXAMPLE, YOU WILL NOT
BE ABLE TO BRING OR PARTICIPATE IN A CLASS ACTION RELATING TO MATTERS
ARISING UNDER THIS AGREEMENT.
1.

Definitions: The following terms as used in this Agreement mean the following:
"Annual Percentage Rate" or "APR" means the rate, disclosed as a percentage, used to
calculate interest charges for your Account.
"Card" means any credit card, Account number, virtual account or other access device
issued by us to you, or any other form of access device that can be used to access credit
on your Account.
"Credit Limit" means the maximum amount of credit that can be accessed using your
Account.
"Daily Periodic Rate" or "DPR" means the APR divided by 365.
"Minimum Payment Due" means the minimum amount you must pay us by the applicable
Payment Due Date for your Account to remain in good standing. Your Minimum Payment
Due will be shown on each Statement.
"Payment Due Date" is the date shown on each Statement by which you must pay at
least the Minimum Payment Due shown on such Statement.
"Purchase" means using your Card (including through a mobile device or mobile wallet)
to purchase or lease goods or services. "Purchases" generally include any credit
adjustments related to a Purchase.
"Statement" means a periodic billing statement we will provide to you if and as required
by applicable law.

2.

Acceptance and Use of This Account; Promise to Pay: By accepting a Card, activating
or using the Account, or allowing someone else to do so, you agree to and accept the
terms of this Agreement, as such terms may be changed from time to time by us. You
may use your Account only for personal, family, or household purposes, and not for any
business, commercial or investment purpose. You should sign the back of your Card

before using it. You promise to pay us the amount of all transactions, interest, fees and
other amounts charged to your Account.
You may make Purchase transactions up to your Credit Limit either by presenting your
Card to a merchant, or by using your Card or Account number over the telephone, internet
or some other electronic method, to complete such transactions.
Certain mobile phones or other electronic devices can be provisioned to function as a
Card, such as by storing and/or accessing Account data (for example, through a mobile
wallet). Transactions using such devices can proceed like an online transaction over the
internet, or can function like a traditional credit card. Any such electronic device
constitutes a "Card" under this Agreement. Applications that enable your electronic
devices to function as a Card may be subject to separate terms and conditions. We are
not responsible if a transaction violates such terms and conditions. However, transactions
subject to any such terms and conditions are also subject to this Agreement.
If your mobile phone or other electronic device can function as a Card, you are solely
responsible for protecting it in the same manner as protecting a plastic credit card or
Account information. Giving another person a device that functions as a Card and/or any
information necessary to use the device as a Card has the same consequence for you as
permitting such person to use your Account.
You may be able to establish recurring periodic billing arrangements with various
merchants, and it will be your responsibility to ensure such merchants are provided with
current Account information. If your Account information changes, such as a change in
Account number or Card expiration date, you consent to our providing such new Account
information, at our discretion, to any or all such merchants, but we are not obligated to do
so. If your Account is closed or your charging privileges are suspended, you will need to
contact such merchants to stop the automatic transactions.
You may not use your Account for balance transfers, to obtain cash advances or for
"quasi-cash" transactions, which include, but are not limited to, purchases of wire
transfers, money orders, traveler’s checks, foreign currency, lottery tickets, off-track bets
and casino gambling chips. If you are somehow able to use your Account for a transaction
of this type, you agree to repay any amount(s) for such transactions upon demand.
3.

Credit Limit: Your initial Credit Limit is provided on the Card carrier accompanying this
Agreement and is included in this Agreement by reference. We will disclose your thencurrent Credit Limit to you on each of your Statements. You agree we may change your
Credit Limit at any time subject to applicable law. You agree never to use your Card when
the use would exceed your Credit Limit, and that we are not obligated to extend credit to
you for an amount that would cause your outstanding balance to exceed your Credit Limit,
or for any amount if your outstanding balance is already over the Credit Limit.
Any increases in your Credit Limit you request will require that you make either a written,
oral or electronic application for our approval. We will re-evaluate your financial condition,
including your ability to make payments, if you request a higher Credit Limit (and we accept
your request), or at any time we deem it appropriate to review your Account, and this may
include obtaining a current credit bureau report, and/or asking you for current financial
information. Based on such reviews, we may immediately increase or reduce your Credit
Limit, or close the Account, without prior written notice to you except as required by
applicable law.
If you make a transaction that would cause you to exceed your Credit Limit, we may
(a) allow the transaction without increasing your Credit Limit; (b) allow the transaction

without increasing your Credit Limit and treat that amount as immediately due, or (c) refuse
the transaction. If the transaction is refused, we may notify the person who attempted the
transaction that it has been refused. If we permit a transaction that causes an over-limit
condition, it does not mean that we will do so again in the future. You will pay any
amount(s) which exceeds your Credit Limit, upon demand.
4.

Illegal Activities and Card Use: You agree not to use your Card or Account to engage
in illegal activities, including, but not limited to, certain internet gambling. If you use your
Card or Account to engage in any illegal activity, you understand that you will nevertheless
be liable for any resulting transactions made by use of your Card or Account, and any
related interest and fees.

5.

Variable Annual Percentage Rate: The Annual Percentage Rate (and Daily Periodic
Rate) on this Account will vary from time to time due to changes to the "Index," plus the
applicable percentage identified in your Important Disclosures as the margin. The APR
(and DPR) may change each billing cycle if the Index changes. The Index is determined
monthly, and is the highest U.S. Prime Rate published in the "Money Rates" section of
The Wall Street Journal on the 28th (twenty-eighth) day of the month or, if the Index is not
published on such date, then on the immediately following publication day. If the Index
has changed, the new APR (and DPR) will apply to your Account as of the first day of your
next billing cycle. If the APR increases (or decreases), you will pay a correspondingly
higher (or lower) interest charge and may pay a higher (or lower) Minimum Payment
Due. The Prime Rate is simply a pricing index and may not be the lowest interest rate
available. If The Wall Street Journal temporarily or permanently stops publishing the
Prime Rate, or how the Prime Rate is defined is changed, then we may select a new third
party source for obtaining the Prime Rate or select a substitute Index not under our control,
in our sole discretion.

6.

Periodic Interest on Your Account:
a)

Paying Interest/When Periodic Interest Begins to Accrue: We do not charge
periodic interest in any billing cycle if you pay the New Balance, if any, as shown
on your prior Statement in full by the Payment Due Date shown on such Statement
every month. A billing cycle without periodic interest is an "Interest Free Period."
If your current Statement indicates that you made full payment of the Previous
Balance (which is the same as the New Balance shown on your previous
Statement) by the Payment Due Date as shown on the previous Statement or if
the current Statement indicates that the Previous Balance was zero or a negative
amount, and if you also make a payment equal to the New Balance indicated on
the current Statement by the Payment Due Date shown on the current Statement,
then we will not charge periodic interest on any portion of the new Purchases that
appear on the current Statement to which we allocated such payment.
On each Purchase, we charge periodic interest from the posting date of the
Purchase on your Statement unless such Purchase posts during an Interest Free
Period. If the Purchase posts during an Interest Free Period but the next billing
cycle is not an Interest Free Period, we start charging periodic interest as of the
first day of that next billing cycle on the portion of the Purchase, if any, that is not
paid by the Payment Due Date. We do not charge periodic interest on any
Purchase that is posted during an Interest Free Period and paid in full by the
Payment Due Date in the next billing cycle.

b)

Interest Calculation; Balances Subject to Interest Rate: We calculate periodic
interest on your Account by multiplying the "Balance Subject to Interest Rate" by
the DPR, and by the number of days in the billing cycle. If you have an Interest
Free Period for a billing cycle, the Balance Subject to Interest Rate for that billing
cycle will be $0.
We figure your Balance Subject to Interest Rate by (i) figuring the "daily balance"
of Purchases for each day in the current billing cycle, (ii) adding up all such daily
balances together and (iii) dividing the total by the number of days in the billing
cycle. This gives us the "average daily balance."
We figure each "daily balance" on your Account as follows. If a daily balance is
less than zero, we will treat it as zero. For each day in the billing cycle:

7.

8.

(i)

we start with the beginning balance of Purchases for such day (which
equals the daily balance of Purchases for the immediately preceding day),
if any;

(ii)

as of the first day of the billing cycle, if the immediately preceding billing
cycle was an Interest Free Period we subtract all payments and credits
applied to Purchases and posted by the Payment Due Date in the current
billing cycle, and make any other necessary debit or other adjustments;

(iii)

we add any new Purchases, if any; and

(iv)

we subtract any payments and credits for that day that apply to Purchases
(but do not subtract a second time any payments or credits that have
already been subtracted in step (ii), above).

The Military Lending Act provides protections for certain members of the Armed Forces
and their dependents ("Covered Borrowers"). The provisions of this section apply only to
Covered Borrowers.
a)

Statement of Military APR: Federal law provides important protections to
members of the Armed Forces and their dependents relating to extensions
of consumer credit. In general, the cost of consumer credit to a member of
the Armed Forces and his or her dependent may not exceed an annual
percentage rate of 36 percent. This rate must include, as applicable to the
credit transaction or account: The costs associated with credit insurance
premiums; fees for ancillary products sold in connection with the credit
transaction; any application fee charged (other than certain application fees
for specific credit transactions or accounts); and any participation fee
charged (other than certain participation fees for a credit card account).

b)

Oral Disclosures: Covered Borrowers may receive important disclosures
and payment obligation information about this Agreement verbally by calling
us toll free at 855.950.0057.

Foreign Transactions: If a Purchase is in a currency other than U.S. dollars, the payment
network supporting your Account will convert the Purchase into U.S. dollars using its own
currency conversion procedures. Currently, the exchange rate is determined in one of two
ways. The rate will come from either the range of rates available in the wholesale currency
markets for the processing date (which may be different from the rate the payment network
receives) or a government-mandated rate in effect on that date. The exchange rate used
may differ from the rate on the date of your Purchase or its posting date. These rules may
change without notice.

9.

Foreign Transaction Fee: A "Foreign Transaction Fee" will be applied to each
Purchase that occurs using a currency other than U.S. dollars (regardless of the location
of the merchant or where the Purchase takes place) or that takes place outside the United
States. The Foreign Transaction Fee is disclosed on the Important Disclosures and will
be displayed as a separate transaction on your Statement. A Foreign Transaction Fee
will be applied to your Account as part of the applicable balance category for which the
Foreign Transaction Fee was incurred when the transaction is posted.

10.

Other Fees:
a)

Late Payment Fee: Your Minimum Payment Due will be past due if it is not
received at the address we specify for payments on your Statement by 5:00 p.m.
Pacific Time on the Payment Due Date shown on your Statement. We will charge
a Late Payment Fee of $19 if we do not receive a Minimum Payment Due by 5:00
p.m. Pacific Time on the 10th day after its Payment Due Date.
However, we will not charge a Late Payment Fee if, immediately after the passage
of those 10 days, the outstanding portion of such Minimum Payment Due is less
than $19.

b)

11.

Document Copies, Rush Card and Other Convenience Fees: If you request a
copy of a charge slip or other document not in connection with a billing error, or if
you request overnight delivery or a replacement card, or if you request any other
special services, we may charge a fee to your Account, subject to applicable law.
Before we do, we will disclose the fee to you at the time of your request.

Minimum Payment Due; Making Payments: We generally calculate your Minimum
Payment Due so that, if you timely make payments equal to the Minimum Payment Due
each month, there are no Purchase-related transactions on your Account and the Prime
Rate does not change, your payments will be substantially equal and will pay off your
outstanding balance of Purchases and accrued interest within 36 months.
Specifically, on the monthly statement we produce at the end of a billing cycle (the
“Statement Cycle”), we will compute and show your Minimum Payment Due for the next
billing cycle (the “Payment Cycle”), as follows:
•

•

We take your total outstanding balance (including interest and fees) as of the end
of the billing cycle in which (i) you last made or returned a Purchase, (ii) you paid
any amount (even a penny) in excess of the Minimum Payment Due, (iii) the Index
changed, (iv) an amount related to a Purchase was refunded to your Account or
(v) at our election, a dispute regarding a transaction was opened or closed (each
such event, a “Computation Event” and the date of the statement for the billing
cycle with a Computation Event, the “Computation Date”).
If there was a Computation Event in the Statement Cycle, we subtract any
amounts that are past due as of the Computation Date and any Late Payment
Fee assessed in such Statement Cycle.

•

We then calculate the substantially equal amounts that would repay the resulting
balance plus interest assuming timely payments of the Minimum Payment Due in
the 36 billing cycles that follow the Computation Date (the “Repayment Period”).
We may (or may not) make one or more simplifying assumptions in making this
computation, including that: (i) all Payment Due Dates are business days, (ii) all
months have the same number of days, and (iii) interest accrues on principal,

interest and fees (not just principal). (We do not make any simplifying assumptions
in computing interest, as opposed to computing the Minimum Payment Due, and
only charge interest on the principal amount outstanding for the actual number of
days outstanding.)
•
•

We round this amount up or down to the nearest penny.
Finally, regardless of whether there was a Computation Event in the Statement
Cycle, we add any past due amounts and any Late Payment Fee assessed in the
Statement Cycle.

This gives us the Minimum Payment Due for the current billing cycle.
However: (1) If this calculation results in an amount of less than $25, your Minimum
Payment Due will be equal to $25. (2) In no event will your Minimum Payment Due exceed
the New Balance shown on your Statement. (3) For any billing cycles immediately after
the Repayment Period, your Minimum Payment Due will equal the amount outstanding at
the end of the Statement Cycle (which could include principal amounts, interest and fees).
For example, if your APR is 15%, you have billing cycles that begin on the 15th of the
month and end on the 14th of the next month, you have a $0 balance on your Account as
of January 15 and you make $3,600 in purchases (net of any rewards you may earn) on
February 1, the Computation Date will initially be February 14. The Minimum Payment
Due shown on your February 14 periodic statement and the following 35 periodic
statements (assuming that, for each billing cycle in the Repayment Period you pay exactly
the Minimum Payment Due exactly on time and there is no subsequent Computation
Event) would be roughly $125. If you were to return $600 of the $3,600 in purchases on
February 15 (i.e., the first day of the next billing cycle) and timely make the $125 Minimum
Payment Due in that billing cycle, March 14 will be a new Computation Date for a new 36cycle Repayment Period. The Minimum Payment Due shown on your March 14 periodic
statement and the following 35 periodic statements (assuming that, for each billing cycle
in the new Repayment Period you pay exactly the Minimum Payment Due exactly on time
and there is no subsequent Computation Event) would be roughly $100.
You agree to make your payments only in U.S. dollars. In our discretion, we may delay
increasing your available credit by the amount of any payment until we determine that your
payment has been indefeasibly collected. You agree that we are not obligated to accept
payment checks drawn on a financial institution that is outside of the U.S. or that do not
contain proper signatures and amounts. If you present and we accept a check drawn on
a non-U.S. financial institution, posting of your payment will be delayed. You agree to
allow us, at our discretion, to place a hold on your Account until a check drawn on a nonU.S. financial institution has been finally collected, and to debit your deposit account or to
reduce your payment, to cover any collection and processing fees associated with
handling such checks. We reserve the right to reject any payment that will create or
increase a credit balance on your Account as of the date we receive the payment. We will
not pay interest on any credit balance on your Account.
Payment received at the address we specify for payments on your Statement in proper
form by 5:00 p.m. Pacific Time on a business day will be credited to your Account as of
that day. Payments received in proper form at this address after that time will be credited
to your Account as of the next business day. We may, in our discretion, accept payments

not received in proper form, but crediting of such payments may be delayed up to five
days following receipt.
When you provide a check as payment, you authorize us either to use information from
your check to make a one-time electronic fund transfer ("EFT") from your deposit account
or to process the payment as a check transaction. When we use information from your
check to make an EFT, funds may be withdrawn from your deposit account as soon as
the same day we receive your payment, and you will not receive your check back from
your financial institution. If your check is returned unpaid for insufficient or uncollected
funds, we may re-present your check electronically.
12.

Irregular Payments: We may accept late payments, partial payments, disputed payments
or payments marked with restrictive writing, such as "Paid in Full" or similar language,
without losing any of our rights under the Agreement. If you wish to make a payment in
satisfaction of a disputed amount or balance, you must send it to TAB Bank, c/o Sunbit,
Attn: Legal Department, PO Box 24010, Los Angeles, CA 90024 with a letter of
explanation. Despite any such language, we may deposit such a payment without such
deposit satisfying the amount in dispute or otherwise affecting our right to receive payment
in full.
You may not use a post-dated check as a payment, and we may return or deposit any
such check without waiting for the date found on the check. We are not liable to you for
any expense or loss you incur arising from the actions we may take with respect to a postdated check.

13.

Allocation of Payments: We will allocate payments and other credits in our sole
discretion, subject to applicable law. As required by law, we will apply payments in excess
of the Minimum Payment Due to outstanding balances with higher APRs, if any, before
outstanding balances with lower APRs, if any. The method we use to allocate payments
may result in your paying higher periodic interest.

14.

Amendments: Subject to applicable law, we may change the terms of this Agreement
for any reason or no reason, and in any respect, by adding, deleting or modifying any
provision, including APRs, fees, the calculation of Minimum Payment Due and other terms.
In certain circumstances, when we are required by law to notify you of changes to the
terms of this Agreement, we will do so. In other circumstances we may not be required to
do so. When required by law to advise you that you have a legal right to reject any
changes we make, we will provide an explanation about how to do that. Changes will not
apply to existing balances except where permitted by applicable law. In some
circumstances, APRs or other aspects of your Account may change even though the terms
of the Account do not change, such as when the Prime Rate changes. We can update
any address or telephone number provided in this Agreement, but we will notify you if we
do so.

15.

Events of Default: We may declare you to be in default under this Agreement, to the
extent permitted by law, if any of the following events occur: (a) you fail to pay any
Minimum Payment Due on or before its Payment Due Date; (b) you breach any other term
of this Agreement or of any other obligation or agreement you have or will have with us or
any of our affiliates; (c) you die or become insolvent; (d) a petition is filed or other
proceeding is started under the federal Bankruptcy Code or any state insolvency statute
by or against you; (e) a receiver is appointed or a writ or order of attachment, levy or
garnishment is issued against you or any of your property assets or income; (f) we believe
in good faith, that the likelihood of your paying or performing all your obligations under this
Agreement is impaired; or (g) you make a fraudulent, false or misleading statement in your

Account application or otherwise in connection with any other obligation or agreement you
have with us or any of our affiliates.
IDAHO, IOWA, KANSAS, MAINE AND SOUTH CAROLINA RESIDENTS ONLY: We may
declare you to be in default if you fail to make a payment as required by this Agreement
(or within 10 days of the time required by this Agreement, for Iowa residents) or if the
prospect of your payment or performance is significantly impaired (for Iowa residents, if,
following an event of default, the prospect of your payment is materially impaired). We
have the burden of establishing the impairment of such prospect of payment or
performance.
WISCONSIN RESIDENTS ONLY: We may declare you to be in default (a) if you permit to
be outstanding an amount exceeding one full payment which has remained unpaid for
more than 10 days after its scheduled due date or deferred due date, or if you fail to pay
the first payment or last payment within 40 days of its scheduled due date or deferred due
date or (b) if you fail to observe any other provision of this Agreement, the breach of which
materially impairs your ability to pay the amounts due under the Agreement.
16.

Remedies on Default: If you are in default, we may (a) declare all or any part of the total
outstanding balance on your Account to be immediately due and payable; (b) terminate or
suspend your Account and/or your ability to make additional transactions using the
Account; (c) reduce your Credit Limit; (d) commence an action for the collection of all
amounts owed in connection with this Agreement; and (e) subject to applicable provisions
of law, charge you all reasonable collection expenses incurred by us in the collection of
amounts you owe under this Agreement, including fees of attorneys, court costs (including
costs incurred in bankruptcy and appellate court proceedings) and fees of any collection
agency to which we refer your Account.

17.

Waiver: We may delay or waive enforcing our rights under applicable law or this
Agreement without losing them. A waiver of rights by us shall not be deemed to be a
waiver of other rights or of the same rights at any other time.

18.

Transfer of Account: You cannot transfer or assign your Account or your rights under
this Agreement to any other person, and any attempt to do so is automatically void and of
no legal effect. You understand and agree that we may transfer or assign all or any part
of your Account balance and/or our rights under this Agreement at any time and without
notice to you.

19.

Cancellation: You may close your Account by notifying us in writing or by telephone, and
by destroying all Card plastics or other credit devices for the Account. You must notify
anyone you have authorized to charge transactions to your Account that you have closed
your Account or we may continue to allow these transactions. Your obligations on the
Account will continue even though we have closed your Account. We may close your
Account or suspend your ability to use your Account or Card, or otherwise cancel, or limit
this Agreement at any time for any reason or no reason, and without notice to you, subject
to applicable law. We are not liable for any refusal by anyone to honor your Account or
Card.

20.

Liability for Account: Except as otherwise noted herein, you are liable for all amounts
due under this Agreement regardless of who receives benefit from the Account.

21.

Other Users of your Account: If you permit another person to use your Account by
providing such person with a Card or the Account number, your permission will be deemed
to extend to all transactions made by that person, and will continue until you take the
necessary steps to prevent such person from making further transactions using the

Account. You will be obligated to pay all transactions made by any person you permit to
use your Account, as well as all related interest and fees, whether or not you intended to
be responsible for such charges.
22.

Liability for Unauthorized Use: If you notice the loss or theft of your Card or a possible
unauthorized use of your Account or Card, you should write to us immediately at: TAB
Bank c/o Sunbit, PO Box 24010, Los Angeles, CA 90024. You will not be liable for any
unauthorized use that occurs after we receive your notice.
We issue the Card to you at your request and you agree to destroy it upon demand. You
will notify us promptly if your Card is lost, stolen or if there is unauthorized use of your
Card or Account, or if someone uses your Card or Account to make unauthorized
purchases at merchants not authorized to accept your Card or Account. Under our no
fraud liability policy, you will not be liable for any unauthorized purchases made through
the Visa® network at merchants, including those transacted on the internet if you contact
us promptly after the Statement on which the transaction occurred was mailed or
electronically sent to you. If you orally give us notice concerning loss or theft, you agree
to confirm such notice in writing upon request. Also, you agree to assist us in determining
the facts and circumstances relating to any loss, theft or possible unauthorized use of your
Card or Account, and to comply with such procedures as we may reasonably require in
connection with our investigation. You agree that unauthorized use does not include use
by a person to whom you have given authority to use the Card or Account, and that you
will be liable for all use by such a person until you notify us that such authority to use the
Card or Account is no longer authorized. To terminate that authority, you must notify us at
855-678-6248.

23.

Credit Reports and Account Information: You give us permission to request information
and to make whatever inquiries we consider necessary and appropriate (including
obtaining information from third parties and requesting consumer reports from consumer
reporting agencies) for the purpose of considering your application for this Account and
subsequently, in connection with any product upgrades or any updates, renewals, credit
limit increases or extensions of credit, or reviewing or collecting your Account. You also
authorize us to report information concerning you or your Account, including information
about your performance under this Agreement, to consumer reporting agencies and others
who may properly receive such information. We may report information about your
Account to credit bureaus. Late payments, missed payments, or other defaults on
your Account may be reflected in your credit bureau report. If you believe that any
information that we have reported to a credit bureau is inaccurate or incomplete,
you may write to us at TAB Bank c/o Sunbit, PO Box 24010, Los Angeles, CA 90024.
In your letter, (a) provide your name and the Account number, (b) identify the
specific information that is being disputed, (c) explain the basis for the dispute, and
(d) provide any supporting documentation you have that substantiates the basis of
the dispute. We will investigate the matter. If our investigation shows that you are
right, we will contact each credit reporting agency to which we reported the
information and will request they correct the report. If we disagree with you after
our investigation, we will tell you in writing.
If you believe that you have been the victim of identity theft, submit an identity theft
report and affidavit to TAB Bank c/o Sunbit, PO Box 24010, Los Angeles, CA 90024.

24.

Change of Contact Information: You agree to notify us promptly if you change your
name, address, telephone number or any other contact information. You also agree that
if the U.S. Postal Service or one of its agents notifies us of a change in address for you,

we may change your address based on this information. We will have no liability to you
for changing your address based on such information, even if the information provided by
the U.S. Postal Service or one of its agents is in error. If any Statement is returned to us
because of an incorrect address, we may stop sending Statements to you until a valid
address is provided to us, but for all purposes it shall be considered as if we made your
Statement available to you as of the Statement date that was or would have been printed
on your Statement.
25.

Telephone Communication Monitoring and Contacting You: You agree that your
telephone communications with us or any of our representatives, affiliates or service
providers may be monitored, recorded and retained by any of them. You expressly
consent and authorize us, our representatives, affiliates, agents and service providers to
contact you at any telephone number you provide to us, in the application or otherwise,
now or in the future, or any number you have previously provided to us, or any of our
representatives, affiliates or service providers, using an auto dialer, pre-recorded
messages, or text messages, in order to provide alerts and other information regarding
your current or future applications and accounts for all products you have or may have
with us. Message and data rates may apply. You also expressly consent to TAB Bank,
or any of its representatives, affiliates or service providers sending email messages
regarding your Account to your email address, including emails delivered to a cell phone
or mobile device. You agree that you will accept calls at your home, place of business or
on a mobile telephone regarding the Account. You understand that calls may be
automatically dialed and a message played; you understand and agree that these calls
and messages may be read or listened to by anyone with access to your telephone or
email account, and that such calls are not "unsolicited calls" for purposes of any state or
federal law, and you expressly consent to receive such calls and messages. You agree
that we are not liable for any resulting breach of privacy or for any charges or costs you
incur in connection with text messaging, emails or other communication that we or any of
our representatives, affiliates or service providers may send you. You agree that this
authorization constitutes a bargained for exchange. To the extent you have the right under
applicable law to revoke this authorization, you agree you may so only by writing to us at
TAB Bank c/o Sunbit, PO Box 24010, Los Angeles, CA 90024 or support@sunbit.com.

26.

Communications Under Federal Bankruptcy Code: Any communication with us
required or permitted under the Federal Bankruptcy Code must be in writing, must include
your Account number, and must be sent to TAB Bank c/o Sunbit, PO Box 24010, Los
Angeles, CA 90024.

27.

Rewards, Special Programs and Benefits: We or Sunbit may offer from time to time
rewards or special programs and benefits ("Programs") for Cardmembers. This
Agreement will apply to these Programs except to the extent it is inconsistent with the
specific offer. The features of these Programs will vary and use of the Account under the
terms of these Programs constitutes acceptance of the terms of the Programs without
modifying or amending this Agreement.

28.

GOVERNING LAW; CLASS ACTION WAIVER: THE TERMS AND ENFORCEMENT OF
THIS AGREEMENT AND YOUR ACCOUNT SHALL BE GOVERNED AND
INTERPRETED IN ACCORDANCE WITH FEDERAL LAW AND, TO THE EXTENT
STATE LAW APPLIES, THE LAW OF THE STATE OF UTAH, WITHOUT REGARD TO
CONFLICT-OF-LAW PRINCIPLES. THE LAW OF THE STATE OF UTAH, WHERE WE
AND YOUR ACCOUNT ARE LOCATED AND FROM WHICH WE EXTEND CREDIT TO
YOU, WILL APPLY NO MATTER WHERE YOU LIVE OR USE THE ACCOUNT. YOU
EXPRESSLY WAIVE YOUR RIGHT TO INITIATE OR PARTICIPATE IN A CLASS

ACTION RELATED TO THIS AGREEMENT PURSUANT TO UTAH CODE ANN. § 70C3-104.
29.

Waiver of Jury Trial: You acknowledge that the right to trial by jury is a
constitutional right but may be waived in certain circumstances. To the extent
permitted by law, you knowingly and voluntarily waive any right to trial by jury in
the event of litigation arising out of or related to this Agreement. This jury trial
waiver shall not affect or be interpreted as modifying in any fashion the Arbitration
Provision below, which has its own separate jury trial waiver. This waiver does not
apply if you are a Covered Borrower under the Military Lending Act at the time this
Account is originated.

30.

Enforceability: Subject to and except as otherwise provided in the Arbitration Provision,
if any term of this Agreement is finally determined to be void or unenforceable by a court
or government agency of competent jurisdiction, that term will continue to be enforceable
to the extent allowed by such court of agency, and the remainder will no longer be a part
of this Agreement. All other provisions of this Agreement will remain in effect.

31.

Agreement in Writing: This Agreement (including this Cardmember Agreement and the
Important Disclosures), is the final expression of the agreement between you and us and
it may not be contradicted by evidence of an alleged oral agreement.

32.

Unsecured Line of Credit: Notwithstanding any language in any agreement to the
contrary, this Account and this Agreement, and your obligation to pay amounts due under
this Agreement, are not secured, and any security interest which might otherwise exist
with respect to the Account or Agreement is hereby waived by us.

33.

ARBITRATION PROVISION:
This ARBITRATION PROVISION does not apply if you are a Covered Borrower under the
Military Lending Act at the time this Account is opened.
To the extent permitted under federal law, you and we agree that either party may elect to
arbitrate – and require the other party to arbitrate – any Claim under the following terms.
A.

RIGHT TO REJECT: You may reject this Arbitration Provision by mailing a
personally signed rejection notice to TAB Bank c/o Sunbit, PO Box 24010, Los
Angeles, CA 90024, certified mail, return receipt requested, within 60 days after
your receipt of the Card after your Account is opened. Any Rejection Notice must
include your name, address, telephone number and Account number. No other
person may submit a rejection notice for you. If you send a rejection notice we will
give you a credit for the standard cost of a letter sent by certified mail. Rejecting
this Arbitration Provision will not affect any other provision of this Agreement.

B.

IMPORTANT WAIVERS: If you or we elect to arbitrate a Claim, YOU AND WE
BOTH WAIVE THE RIGHT TO: (1) HAVE A COURT OR JURY DECIDE THE
CLAIM; (2) PARTICIPATE IN A CLASS ACTION IN COURT OR IN
ARBITRATION, WHETHER AS A CLASS REPRESENTATIVE, CLASS
MEMBER OR OTHERWISE; (3) ACT AS A PRIVATE ATTORNEY GENERAL IN
COURT OR IN ARBITRATION; OR (4) JOIN OR CONSOLIDATE CLAIM(S)
WITH CLAIMS INVOLVING ANY OTHER PERSON IN COURT OR IN
ARBITRATION. Other rights are more limited in arbitration than in court or
are not available in arbitration. The waivers in items (2)-(4) above are called
the "Class Action and Multi-Party Waivers." The arbitrator shall have no
authority to conduct any arbitration inconsistent with the Class Action and

Multi-Party Waivers or to issue any relief that applies to any person or entity
except you or us individually.
C.

DEFINITIONS: In this Arbitration Provision, the following definitions will apply:
"You," "your" and "yours" mean all persons whom we approve to accept or use
the Account, and any person who agrees to be responsible for payment of the
Account, and the heirs, executors and assigns of all of the foregoing. "We," "us,"
"our" and "ours" mean TAB Bank; Sunbit; and any servicer or any agent acting on
behalf of TAB Bank or Sunbit; all of their parents, wholly or majority owned
subsidiaries and other affiliates; any predecessors, successors, and assigns of
these entities; and all officers, directors, employees, agents, controlling persons
and representatives thereof. These terms also include any party named as a codefendant with us in a Claim (as defined below) asserted by you, such as a credit
reporting agency, a merchant accepting a credit card, a servicing company or a
debt collector. "Claimant" means the party who asserts or seeks to assert a Claim
in a lawsuit or arbitration proceeding. "Administrator" means either the American
Arbitration Association (the "AAA"), 120 Broadway, Floor 21, New York, NY
10271, www.adr.org, or JAMS, 620 Eighth Avenue, 34th Floor, New York, NY
10018, www.jamsadr.com, provided that, if the Claimant seeks to assert a Claim
in a class or multi-party basis, the Administrator must not have in place a formal or
informal policy that is inconsistent with and purports to override the Class Action
and Multi-Party Waivers set forth above (see the above Section B.). The Claimant
will select the Administrator by filing a Claim with the Administrator of that party's
choice. (If a Claimant files a lawsuit in court asserting Claim(s) that are subject to
arbitration and the other party files a motion to compel arbitration, which is granted,
it will be up to the Claimant to commence the arbitration proceeding.) If for any
reason the selected Administrator is unable or unwilling to serve or continue to
serve as Administrator, the other company will serve as Administrator. If neither
the AAA nor JAMS is able or willing to serve as Administrator, you and we will
mutually agree upon an Administrator or arbitrator, or the court will appoint the
Administrator or arbitrator or arbitrators (in the case of a three-arbitrator panel
provided for in Section H., below), subject to the limitations set forth above
regarding the Class Action and Multi-Party Waivers.

D.

A "Claim" means any legal claim, dispute or controversy between you and us that
arises from or relates in any way to this Agreement, including, but not limited to,
any dispute arising before the date of this Arbitration Provision and any dispute
relating to: (1) any Card; (2) your Account; (3) any transaction in your Account;
(4) fees, charges or interest; (5) the events leading up to the Agreement (for
example, any disclosure, advertisement, application, solicitation, promotion or oral
or written statement, warranty or representation made by us); (6) an application for
or denial of credit; (7) credit reporting; (8) benefit programs related to your Account;
(9) any product or service provided by or through us or third parties in connection
with the Agreement and any associated fees; (10) the collection of amounts due
and the manner of collection; (11) our use or failure to protect any personal
information you give us in connection with this Agreement; (12) enforcement of
any and all of the obligations a party hereto may have to another party;
(13) compliance with applicable laws and/or regulations; or (14) the relationships
resulting from the Agreement or any of the foregoing. "Claim" has the broadest
possible meaning. It includes initial claims, counterclaims, cross-claims, third-

party claims and federal, state, local and administrative claims and claims which
arose before the effective date of this Arbitration Provision. It also includes
disputes based upon contract, tort, consumer rights, fraud and other intentional
torts, constitution, statute, regulation, ordinance, common law and equity and
claims for money damages and injunctive or declaratory relief. However, "Claim"
does not include any individual action brought by you in small claims court or your
state's equivalent court, unless such action is transferred, removed, or appealed
to a different court. Also, "Claim" does not include disputes about the validity,
enforceability, coverage or scope of this Arbitration Provision or any part
thereof (including, without limitation, this sentence, the Class Action and
Multi-Party Waivers or, subparts (A) and (B) of Section K. below, captioned
"SEVERABILITY"); all such disputes are for a court and not an arbitrator to
decide. Notwithstanding the foregoing, the term "Claim" includes any
dispute about the validity or enforceability of this Agreement, as a whole;
any such Claim is for the arbitrator, not a court, to decide.
E.

ELECTING OR REQUIRING ARBITRATION: The Claimant may elect arbitration
of a Claim by initiating an arbitration in accordance with the Administrator's rules.
The other party may elect arbitration by giving written notice of an election to
arbitrate. This notice may be given after a lawsuit has been filed and may be given
in papers or motions in the lawsuit. If such a notice is given, the Claim shall be
resolved by arbitration under this Arbitration Provision and the applicable rules of
the Administrator then in effect. It will be up to the Claimant to commence the
arbitration proceeding. Even if all parties have opted to litigate a Claim in court,
you or we may elect arbitration with respect to any Claim made by a new party or
any Claim later asserted by a party in that or any related or unrelated lawsuit
(including a Claim initially asserted on an individual basis but modified to be
asserted on a class, representative or multi-party basis). Nothing in that litigation
shall constitute a waiver of any rights under this Arbitration Provision. The
arbitrator will be selected under the Administrator's rules, except that the arbitrator
must be a lawyer with at least ten years of experience or a retired judge, unless
you and we agree otherwise.

F.

LOCATION AND COSTS: Any arbitration hearing that you attend will take place
in a location that is reasonably near your residence or in another location agreed
to by you and us. We will consider (and generally honor) any good faith request
to bear the fees charged by the Administrator and the arbitrator. We will pay the
reasonable and actual expense of our attorneys, experts and witnesses,
regardless of which party prevails in the arbitration, and we will pay all such
reasonable and actual fees of yours if you prevail in an arbitration where you are
the Claimant (even if we are not required to pay such fees under applicable law).
We will also pay all such fees we are required to bear: (a) under applicable law; or
(b) in order to enforce this Arbitration Provision.

G.

DISCOVERY; GETTING INFORMATION: Either party may obtain from the other
party prior to the hearing any information available under the Administrator's rules
or any relevant information the arbitrator determines should in fairness be made
available.

H.

EFFECT OF ARBITRATION AWARD: Any state or federal court with jurisdiction
and venue may enter an order enforcing this Arbitration Provision, enter judgment

upon the arbitrator's award and/or take any action authorized under the Federal
Arbitration Act, 9 U.S.C. §§1 et seq. (the "FAA"). For any arbitration-related
proceedings in which courts are authorized to take actions under the FAA, each
party hereto expressly consents to the non-exclusive jurisdiction and venue of any
state court of general jurisdiction or any state court of equity that is reasonably
convenient to you, provided that the parties to any such judicial proceeding shall
have the right to initiate such proceeding in federal court or remove the proceeding
to federal court if authorized to do so by applicable federal law. The arbitrator's
award will be final and binding, except for: (1) any appeal right under the FAA; and
(2) Claims involving more than $50,000. For Claims involving more than $50,000
(including claims where the cost of any requested injunctive or declaratory relief
would potentially exceed $50,000), if permitted by the rules of the Administrator,
any party may appeal the award to a three-arbitrator panel appointed by the
Administrator, which will reconsider de novo any aspect of the initial award that is
appealed. The panel's decision will be final and binding, except for any appeal
right under the FAA. Costs of any appeal will be governed by Section F. above.
No arbitration award involving the parties will have any preclusive effect as to
issues or claims in any dispute involving anyone who is not a party to the
arbitration, nor will an arbitration award in prior disputes involving other parties
have preclusive effect in an arbitration between the parties to this Agreement.
I.

GOVERNING LAW: This Arbitration Provision is made pursuant to a transaction
involving interstate commerce and shall be governed by the FAA, and not by any
state law concerning arbitration. The arbitrator shall follow applicable substantive
law to the extent consistent with the FAA, applicable statutes of limitation and
applicable privilege rules, and shall be authorized to award all remedies permitted
by applicable substantive law, including, without limitation, compensatory,
statutory and punitive damages (subject to constitutional limits that would apply in
court), declaratory, injunctive and other equitable relief, and attorneys' fees and
costs. Upon the timely request of either party, the arbitrator shall write a brief
explanation of the basis of his or her award. The arbitrator will follow rules of
procedure and evidence consistent with the FAA, this Arbitration Provision and the
Administrator's rules.

J.

SURVIVAL; PRIMACY: This Arbitration Provision shall survive your full payment
of amounts due on your Account under the Agreement; termination or cancellation
of the Agreement; our sale, assignment or transfer of the Agreement, the Account
or any Account receivables; any legal proceeding to collect a debt owed by you;
any bankruptcy or insolvency; and any postponement of payments, waiver of
payments or modification granted pursuant to the Agreement. In the event of any
conflict or inconsistency between this Arbitration Provision and the Administrator's
rules or the Agreement, this Arbitration Provision will govern.

K.

SEVERABILITY: If any portion of this Arbitration Provision cannot be enforced,
the rest of the Arbitration Provision will continue to apply, except that (A) the entire
Arbitration Provision (other than this sentence) shall be null and void with respect
to any Claim asserted on a class, representative or multi-party basis if the Class
Action and Multi-Party Waivers are held to be invalid, subject to any right to appeal
such holding, and (B) if a Claim is brought seeking public injunctive relief and a
court determines that the restrictions in the Class Action and Multi-Party Waivers
prohibiting the arbitrator from awarding relief on behalf of third parties are

unenforceable with respect to such Claim (and that determination becomes final
after all appeals have been exhausted), the Claim for public injunctive relief will be
determined in court and any individual Claims seeking monetary relief will be
arbitrated. In such a case the parties will request that the court stay the Claim for
public injunctive relief until the arbitration award pertaining to individual relief has
been entered in court. In no event will a Claim for public injunctive relief be
arbitrated.
L.

34.

NOTICE OF CLAIM; RIGHT TO RESOLVE; SPECIAL PAYMENT: Prior to
initiating, joining or participating in any judicial or arbitration proceeding, whether
individually, as a class representative or participant or otherwise, regarding any
Claim, the Claimant shall give the other party written notice of the Claim (a "Claim
Notice") and a reasonable opportunity, not less than 30 days, to resolve the Claim.
Any Claim Notice you send must include your name, address, telephone number
and Account number. Any Claim Notice must explain the nature of the Claim and
the relief that is demanded. You may only submit a Claim Notice on your own
behalf and not on behalf of any other party. The Claimant must reasonably
cooperate in providing any information about the Claim that the other party
reasonably requests. If: (i) you submit a Claim Notice in accordance with this
paragraph on your own behalf (and not on behalf of any other party); (ii) we refuse
to provide the relief you request before an arbitrator is appointed; and (iii) an
arbitrator subsequently determines that you were entitled to such relief (or greater
relief), the arbitrator shall award you at least $7,500 plus any arbitration fees and
attorneys' fees and costs to which you may be entitled under this Arbitration
Provision or applicable law.

BILLING RIGHTS SUMMARY
YOUR BILLING RIGHTS: KEEP THIS DOCUMENT FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair Credit Billing
Act.
WHAT TO DO IF YOU FIND A MISTAKE ON YOUR STATEMENT
If you think there is an error on your statement, write to us at: TAB Bank c/o Sunbit, PO
Box 24010, Los Angeles, CA 90024. In your letter, give us the following information:
•

Account information: Your name and Account number.

•

Dollar amount: The dollar amount of the suspected error.

•

Description of problem: If you think there is an error on your bill, describe what
you believe is wrong and why you believe it is a mistake.

You must contact us:
•

Within 60 days after the error appeared on your statement.

•

At least 3 business days before an automated payment is scheduled, if you want
to stop payment on the amount you think is wrong.

You must notify us of any potential errors in writing. You may call us, but if you do we are
not required to investigate any potential errors and you may have to pay the amount in
question.
WHAT WILL HAPPEN AFTER WE RECEIVE YOUR LETTER

When we receive your letter, we must do two things:
1.

Within 30 days of receiving your letter, we must tell you that we received
your letter. We will also tell you if we have already corrected the error.

2.

Within 90 days of receiving your letter, we must either correct the error or
explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
•

We cannot try to collect the amount in question, or report you as delinquent on that
amount.

•

The charge in question may remain on your statement, and we may continue to
charge you interest on that amount.

•

While you do not have to pay the amount in question, you are responsible for the
remainder of your balance.

•

We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
•

If we made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.

•

If we do not believe there was a mistake: You will have to pay the amount in
question along with applicable interest and fees. We will send you a statement of
the amount you owe and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.

If you receive our explanation but still believe your bill is wrong, you must write to us within
10 days telling us that you still refuse to pay. If you do so, we cannot report you as
delinquent without also reporting that you are questioning your bill. We must tell you the
name of anyone to whom we reported you as delinquent, and we must let those
organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount
you question even if your bill is correct.
YOUR RIGHTS IF YOU ARE DISSATISFIED WITH YOUR CREDIT CARD
PURCHASES:
If you are dissatisfied with the goods or services that you have purchased with your credit
card, and you have tried in good faith to correct the problem with the merchant, you may
have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.

The purchase must have been made in your home state or within 100 miles
of your current mailing address, and the purchase price must have been
more than $50. (Note: Neither of these is necessary if your purchase was
based on an advertisement we mailed to you, or if we own the company
that sold you the goods or services.)

2.

You must have used your credit card for the purchase. Purchases made
with cash advances from an ATM or with a check that accesses your credit
card Account do not qualify.

3.

You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact
us in writing at:
TAB Bank c/o Sunbit
PO Box 24010, Los Angeles, CA 90024.
While we investigate, the same rules apply to the disputed amount as discussed above.
After we finish our investigation, we will tell you our decision. At that point, if we think you
owe an amount and you do not pay, we may report you as delinquent.
35.

Additional Disclosures
IOWA, MISSOURI, NEBRASKA, AND TEXAS RESIDENTS ONLY: ORAL
AGREEMENTS OR COMMITMENTS TO LOAN MONEY, EXTEND CREDIT OR
FORBEAR FROM ENFORCING REPAYMENT OF DEBT INCLUDING PROMISES TO
EXTEND OR RENEW SUCH DEBT ARE NOT ENFORCEABLE. TO PROTECT YOU
AND US FROM ANY MISUNDERSTANDING OR DISAPPOINTMENT, ANY
AGREEMENTS WE REACH COVERING SUCH MATTERS ARE CONTAINED IN THIS
WRITING, WHICH IS THE COMPLETE AND EXCLUSIVE STATEMENT OF THE
AGREEMENT BETWEEN US, EXCEPT AS WE MAY LATER AGREE IN WRITING TO
MODIFY IT.
CALIFORNIA AND UTAH RESIDENTS: As required by California and Utah law, you are
hereby notified that a negative credit report reflecting on your credit record may be
submitted to a credit reporting agency if you fail to fulfill the terms of your credit obligations.
NEW YORK, RHODE ISLAND AND VERMONT RESIDENTS: You understand and agree
that we may obtain a consumer credit report in connection with any updates, renewals or
extensions of any credit as a result of your application and card membership. If you ask,
you will be informed whether or not such a report was obtained and, if so, the name and
address of the agency that furnished the report. You also understand and agree that we
may obtain a consumer credit report in connection with the review or collection of any
extension of credit made to you or for other legitimate purposes related to such extension
of credit.
MARRIED WISCONSIN RESIDENTS: If you are married: (i) you confirm that this Account
is being incurred in the interest of your marriage or family; (ii) no provision of any marital
property agreement, unilateral statement, or court decree under the Wisconsin Marital
Property Act will adversely affect a creditor's interest unless, before the time credit is
granted, the creditor is furnished a copy of that agreement or decree or is given complete
information about the agreement or decree; (iii) you understand and agree that we will
provide a copy of this Agreement to your spouse for his or her information. If the Account
for which you are applying is granted, you will notify us if you have a spouse by sending
your name and your spouse's name and address to us at TAB Bank c/o Sunbit, PO Box
24010, Los Angeles, CA 90024.

